WAIVER

Supreme Court of the United States

No. 20-6503
George J. Raudenbush, Tl ve Monroe County, Tennessee, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and J do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

oarce County, Teanesseé, Bill Biveas Vays Jones

 

x Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member,

Signature

pete __ 7 ipfiofrore

(Type or print) Name, D at han Swann Ta

Mr. OMs, OMrs. C Miss
Firm fo Laht
Address__ 00 _5. Ga eet Sur 0
City & State. Kaoke: le y TLV Zip 292
Phone v - 170

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce: Pebbione George uv Ravdenbush , a, pre-e
Rok Spariiting, Esquic

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

 
